September 2008
Report No. AUD-08-019


Reliability of Supervisory Information
Accessed Through the Virtual
Supervisory Information on the Net
(ViSION) System




            AUDIT REPORT
                                           Report No. AUD-08-019                                                              September 2008

                                           Reliability of Supervisory Information Accessed
                                           Through the Virtual Supervisory Information on
   Federal Deposit Insurance Corporation
                                           the Net (ViSION) System
 Why We Did The Audit
                                           Audit Results
 ViSION is a mission-critical FDIC
 system that provides access to a          Supervisory information accessed through the ViSION system was not fully reliable in each of the
 broad range of information related to     four areas that we assessed. The table below summarizes the results of our assessment of key
 insured financial institutions in         supervisory information accessed through the ViSION system for each of the 75 financial
 support of the Corporation’s              institutions we sampled.
 insurance and supervision programs.
 The system serves approximately           Reliability of Key Supervisory Information for 75 Institutions
 3,900 FDIC and outside agency users                                    Financial
                                                 Institution                                                 Safety and          ROE
 (primarily other federal and state                                    Institution        BSA
                                              Information as of                                              Soundness         Processing
 regulatory agencies). The objective                                  Examination      Examinations
                                                May 28, 2008                                                   ROEs              Dates
 of the audit was to assess the                                          Ratings
 reliability of key supervisory                    Reliable                73                 73                 42                65
 information accessed through the
 ViSION system.                                   Unreliable                2                 2                  33                10

 Background                                   Total Institutions            75                75                 75                75
 Key supervisory information               Source: Analysis of information in the ViSION system, hard copy ROEs, and discussions with DSC
 accessed through the ViSION system        officials.
 includes: (1) examination ratings
 used to evaluate the safety and           Unreliable information pertaining to examination ratings, BSA violations, and ROE processing
 soundness of financial institutions;      dates resulted principally from erroneous data entry. Unreliable information pertaining to ROEs
 (2) Bank Secrecy Act (BSA)                resulted principally from state regulatory agencies not submitting electronic ROEs to the FDIC
 examination information reported to       and insufficient controls over the collection, processing, and storage of ROEs. Unreliable
 the Department of the Treasury;           information accessed through the ViSION system can limit the efficiencies that the FDIC
 (3) safety and soundness Reports of       intended to achieve through automation such as accurate, timely, and consistent data used for off-
 Examination (ROE) provided to             site monitoring of financial institutions. In addition, because ROE processing dates are used in
 financial institutions; and (4) ROE       determining deposit insurance assessments, the reliability of those dates is critical to ensuring the
 processing dates used to monitor          integrity of premiums charged to insured financial institutions. Unreliable ROE processing dates
 examination frequency and determine       resulted in 1 of 75 sampled institutions being significantly undercharged ($3,050, or about 10
 deposit insurance assessments for         percent) on one of its quarterly deposit insurance assessments.
 financial institutions. The FDIC’s
 Division of Supervision and               DSC has taken steps to promote the reliability of information accessed through the ViSION
 Consumer Protection (DSC) is              system. For example, DSC periodically reviews the integrity of selected information accessible
 responsible for ensuring the              through the ViSION system as part of the division’s internal reviews. DSC also identified
 reliability of supervisory information    concerns regarding the reliability of ROE information prior to our audit and was working to
 in each of these four areas.              improve its processes and technology for collecting, processing, and storing electronic ROEs.
                                           However, DSC had not performed an assessment of supervisory information accessed through the
 We reviewed a sample of 75 of the         ViSION system to determine an acceptable information accuracy rate. Establishing an
 5,075 financial institutions for which    information accuracy rate is important for ensuring cost-beneficial controls over the reliability of
 the FDIC was the primary federal          information accessed through the ViSION system.
 regulator as of April 3, 2008. For
 each of the 75 institutions, we
 verified supervisory information
                                           Recommendation and Management Response
 accessed through the ViSION system        We recommended that the Director, DSC, conduct an assessment of key supervisory information
 to source documentation, such as          accessed through the ViSION system in order to define an acceptable accuracy rate and identify
 hard copy ROEs. We considered the         respective controls and responsibilities over the reliability of supervisory information consistent
 information we assessed to be
                                           with the results of the assessment.
 reliable if it was accurate and
 complete as described in the
 Government Accountability Office’s        DSC concurred with our recommendation and has planned to take responsive actions.
 publication Assessing the Reliability
 of Computer-Processed Data.


To view the full report, go to www.fdicig.gov/2008reports.asp
Contents                                                            Page


BACKGROUND                                                            1
  Key Supervisory Information Accessed Through the ViSION System      2
  Assessing the Reliability of Key Supervisory Information            4

RESULTS OF AUDIT                                                      4

ASSESSMENT OF KEY SUPERVISORY INFORMATION ACCESSED                    4
THROUGH THE VISION SYSTEM
  Examination Ratings                                                 5
  BSA Examinations                                                    5
  Safety and Soundness ROEs                                           6
  ROE Processing Dates                                                7
  Strengthening the Reliability of Key Supervisory Information        7
  Recommendation Related to ViSION System Information Reliability     8

CORPORATION COMMENTS AND OIG EVALUATION                               8

APPENDICES
  1. OBJECTIVE, SCOPE, AND METHODOLOGY                               10
  2. ROLE OF EXAMINATION MAIL DATES IN CALCULATING                   14
     DEPOSIT INSURANCE ASSESSMENTS
  3. CORPORATION COMMENTS                                            16
  4. MANAGEMENT RESPONSE TO THE RECOMMENDATION                       17
  5. ACRONYMS USED IN THE REPORT                                     18

TABLES
  1. Reliability of Key Supervisory Information for 75 Sampled        5
     Institutions
  2. Unreliable Examination Mail Dates in the ViSION System          15
  3. Effects of Unreliable Examination Mail Dates on Insurance       15
     Assessments
    Federal Deposit Insurance Corporation                                                              Office of Audits
    3501 Fairfax Drive, Arlington, VA 22226                                               Office of Inspector General


    DATE:                                     September 25, 2008

    MEMORANDUM TO:                            Sandra L. Thompson, Director
                                              Division of Supervision and Consumer Protection

                                              /Signed/
    FROM:                                     Russell A. Rau
                                              Assistant Inspector General for Audits

    SUBJECT:                                  Reliability of Supervisory Information Accessed Through
                                              the Virtual Supervisory Information on the Net (ViSION)
                                              System (Report No. AUD-08-019)


    This report presents the results of our audit of the reliability of supervisory information
    accessed through the ViSION system. ViSION is a mission-critical FDIC system 1 that
    provides access to a broad range of information related to insured financial institutions in
    support of the Corporation’s insurance and supervision programs. The objective of the
    audit was to assess the reliability of key supervisory information accessed through the
    ViSION system. We conducted this performance audit in accordance with generally
    accepted government auditing standards. Appendix 1 of this report discusses our audit
    objective, scope, and methodology in detail.


BACKGROUND

    The ViSION system is one of the most widely-used Web-based systems at the FDIC.
    During the first 6 months of 2008, the system recorded approximately 5.7 million pages
    viewed and served about 3,900 FDIC and outside agency users (primarily other federal
    and state regulatory agencies). The ViSION system’s primary users within the FDIC are
    executives, regional managers, case managers, review examiners, and field examiners in
    the Division of Supervision and Consumer Protection (DSC). DSC personnel use the
    system to perform supervisory-related functions, such as tracking applications, accessing
    examination information, and monitoring enforcement actions. Analysts in the Division
    of Insurance and Research (DIR) also rely on information in the ViSION system to
    perform insurance-related functions, such as analyzing trends in the banking industry and
    calculating deposit insurance assessment rates for financial institutions.




    1
     FDIC Circular 1360.13, Information Technology Contingency Planning, dated June 30, 2008, defines a
    mission-critical system as any information technology (IT) application, resource, or service that is deemed
    essential to the mission or business of the FDIC. Mission-critical systems require special attention to
    security due to their high need for availability.
Key Supervisory Information Accessed Through the ViSION System

      Key supervisory information accessed through the ViSION system includes:
      (1) financial institution examination ratings (examination ratings); (2) Bank Secrecy Act
      (BSA) of 1970 examination information (BSA examinations) reported to the Department
      of the Treasury; (3) safety and soundness Reports of Examination (ROE); and (4) ROE
      processing dates used to monitor examination frequency and determine deposit insurance
      assessments for financial institutions. Our audit focused on assessing the reliability of
      information in these four areas because of their criticality to the success of the FDIC’s
      insurance and supervision programs. A brief description of each area follows.

          •   Examination Ratings. Pursuant to the Uniform Financial Institutions Rating
              System, federal and state regulatory agencies assign examination ratings to
              financial institutions based on the results of safety and soundness examinations
              and other supervisory activities. Examination ratings consist of a composite
              rating reflecting the institution’s overall financial condition and operations and six
              component ratings pertaining to the institution’s capital, assets, management,
              earnings, liquidity, and sensitivity to market risk (collectively referred to as
              CAMELS ratings). 2 DSC personnel manually enter composite and component
              ratings for all FDIC-insured financial institutions into the ViSION system, which
              is the Corporation’s system of record for examination ratings. The reliability of
              examination ratings is critical because they are used by the FDIC and other
              regulatory agencies to focus supervisory attention on institutions experiencing
              financial and operational weaknesses and to monitor safety and soundness trends
              throughout the financial industry. Examination ratings are also used in
              calculating deposit insurance assessments charged to financial institutions.

          •   BSA Examinations. Congress enacted BSA to prevent banks and other financial
              service providers from being used as intermediaries for, or to hide the transfer or
              deposit of, money derived from criminal activity. BSA requires financial
              institutions to assist government agencies in this regard by maintaining
              appropriate records and filing certain reports that can be used in criminal, tax, or
              regulatory investigations or proceedings. Under the Act, the FDIC is authorized
              to examine financial institutions for BSA compliance and refer significant
              violations and deficiencies to the Department of the Treasury (the Treasury). The
              FDIC and state regulatory agencies examine financial institutions for BSA
              compliance in conjunction with safety and soundness examinations. DSC
              personnel manually enter the results of BSA examinations, including the number
              and type of violations and enforcements actions (if any), into the ViSION system.
              To facilitate this process, DSC has established codes in the ViSION system that
              correspond to specific types of BSA violations and enforcement actions. DSC
              uses information in the ViSION system to report BSA examination information to
              the Treasury.

      2
       Composite and component ratings are assigned on a scale of 1 to 5, with 1 representing the highest rating
      and least degree of supervisory concern and 5 representing the lowest rating and greatest degree of
      supervisory concern.


                                                           2
    •   Safety and Soundness ROEs. Users of the ViSION system can access ROEs
        pertaining to FDIC-supervised financial institutions through a system component
        called the ROE module. The ROE module links users of the ViSION system to a
        separate standalone system called the Interagency Examination Repository (IER),
        which is used by FDIC and state examiners to store and access electronic copies
        of completed safety and soundness ROEs. FDIC and state examination personnel
        enter ROEs into the IER using a combination of manual and automated processes.
        DSC intended for the IER to promote efficiencies in the off-site monitoring of
        financial institutions. However, as discussed later in this report, concerns
        regarding the reliability of information in the IER require DSC to rely instead on
        hard copy ROEs as the system of records for examinations.

    •   ROE Processing Dates. Our audit focused on three ROE processing dates that
        the FDIC uses to monitor examination frequency and determine deposit insurance
        assessment rates for financial institutions. All three dates, which are manually
        entered into the ViSION system by DSC personnel, are described below.

             o Examination Start Date. The date that the FDIC examination team begins
               the on-site examination. DSC uses this date (along with the examination
               completion date described below) to monitor compliance with regulatory
               requirements concerning the length of time between examinations.

             o Examination Completion Date. The date that the FDIC examination team
               completes the examination and submits the ROE for supervisory review.

             o Examination Mail Date. The date that the federal or state regulatory
               agency mails the completed ROE to the financial institution. DIR uses the
               examination mail date (also referred to as the “transmittal date”) to
               determine when deposit insurance assessment pricing changes become
               effective for financial institutions. 3

The FDIC has established a Data Stewardship Program 4 to enable the Corporation to,
among other things, ensure the usefulness, accuracy, timeliness, and accessibility of
corporate data. Under the program, divisions and offices designate subject matter experts
(SME) who are responsible for preserving the accuracy of data entered into application
systems and databases. Within DSC, personnel in the Technology Supervision Branch
serve as SMEs for the ViSION system.




3
  FDIC Rules and Regulations Part 327.4, Assessment Rates, describes circumstances in which the effective
date for determining deposit insurance assessment pricing can be different than the examination mail date.
Such circumstances include, for example, situations in which the FDIC disagrees with a financial
institution examination rating assigned by another regulatory agency and determines that a rating change is
warranted.
4
  FDIC Circular 1301.3, Data Stewardship Program, dated September 4, 2001.


                                                     3
Assessing the Reliability of Key Supervisory Information

      We used the Government Accountability Office’s (GAO) October 2002 publication
      entitled, Assessing the Reliability of Computer-Processed Data, as the overarching
      criteria for assessing the reliability of supervisory information accessed through the
      ViSION system. The publication states that computer-processed data are reliable when
      they are accurate (i.e., they reflect the data entered at the source or in the source
      documents) and complete (i.e., they contain all relevant data elements and records).
      Based on a random sample of 75 financial institutions for which the FDIC is the primary
      federal regulator, we verified key supervisory information accessed through the ViSION
      system to source documentation, such as hard copy safety and soundness ROEs.


RESULTS OF AUDIT

      Supervisory information accessed through the ViSION system pertaining to examination
      ratings, BSA examinations, safety and soundness ROEs, and ROE processing dates was
      not fully reliable for the 75 financial institutions that we sampled. Specifically,
      examination ratings and BSA examinations were generally reliable, with some
      exceptions. Safety and soundness ROEs were not reliable for 33 of the 75 institutions,
      and ROE processing dates were not reliable for 10 of the 75 institutions. Unreliable
      information accessed through the ViSION system can limit the efficiencies that the FDIC
      intended to achieve through automation such as accurate, timely, and consistent data used
      for off-site monitoring of financial institutions. In addition, because ROE processing
      dates are used in determining deposit insurance assessments, the reliability of those dates
      is critical to ensuring the integrity of premiums charged to insured financial institutions.
      Unreliable ROE processing dates resulted in 1 of 75 sampled institutions being
      significantly undercharged ($3,050, or about 10 percent) on one of its quarterly deposit
      insurance assessments.


ASSESSMENT OF KEY SUPERVISORY INFORMATION ACCESSED THROUGH
THE VISION SYSTEM

      As reflected in Table 1 below, supervisory information accessed through the ViSION
      system pertaining to examination ratings, BSA examinations, safety and soundness
      ROEs, and ROE processing dates was not fully reliable for the 75 financial institutions
      that we sampled. Unreliable information accessed through the ViSION system can limit
      the efficiencies, such as accurate, timely, and consistent data used for off-site monitoring
      of financial institutions, that the FDIC intended to achieve through automation. In
      addition, because ROE processing dates are used in determining deposit insurance
      assessments, the reliability of those dates is critical to ensuring the integrity of premiums
      charged to insured financial institutions.




                                                    4
      Table 1. Reliability of Key Supervisory Information for 75 Sampled Institutions
            Institution                                       Safety and      ROE
                               Examination        BSA
        Information as of                                     Soundness Processing
                                 Ratings      Examinations
          May 28, 2008                                          ROEs          Dates
             Reliable               73             73             42            65
              Unreliable                    2                   2                  33                10
          Total Institutions               75                   75                 75                75
      Source: Office of Inspector General (OIG) analysis of information in the ViSION system, hard
              copy ROEs, and discussions with DSC officials.


Examination Ratings

      DSC’s Risk Management Examination Manual states that examination ratings are used
      by regulators to evaluate the safety and soundness of financial institutions and to identify
      those institutions requiring special supervisory attention or concern. In addition, FDIC
      Circular 4700.1, Risk Related Premium System, dated June 7, 2007, states that
      maintaining accurate and complete examination ratings in the ViSION system is
      “extremely important” because the ratings are used in calculating deposit insurance
      assessments for financial institutions. Due to erroneous data entry, the ViSION system
      contained inaccurate component ratings for 2 of the 75 financial institutions that we
      sampled. We brought these inaccuracies to the attention of DSC officials during our
      audit, and the ratings were corrected in the ViSION system. The inaccurate ratings
      resulted in a slight undercharge (less than $15.00) for one institution on its 4th quarter
      2007 deposit insurance assessment.


BSA Examinations

      Under the terms of a Memorandum of Understanding between the Federal Banking
      Agencies (FBA) 5 and the Treasury’s Financial Crimes Enforcement Network (FinCEN),
      the FDIC is required to report information to FinCEN on the BSA examinations the
      Corporation conducts or reviews. Information typically reported includes, for example,
      the number of BSA examinations conducted, the number and type of BSA violations
      identified, and the type of BSA enforcement actions taken. DSC Regional Director
      Memorandum 03-048, Bank Secrecy Act Examination Violations Codes, dated
      October 20, 2003, states that information in the ViSION system is used to fulfill the
      FDIC’s obligation to report BSA violations to FinCEN. The ViSION system did not
      contain all relevant BSA information for 2 of the 75 financial institutions that we
      sampled. For one institution, the system did not contain a BSA violation cited in the
      safety and soundness ROE because DSC had not developed a violation code to track the


      5
       The FBAs are the Board of Governors of the Federal Reserve System, the FDIC, the National Credit
      Union Administration, the Office of the Comptroller of the Currency, and the Office of Thrift Supervision.


                                                          5
      specific type of violation cited. 6 As a result, DSC did not include this violation in its
      BSA reporting to FinCEN. For the remaining institution, the ViSION system contained
      some, but not all, pertinent BSA information due to an oversight. Specifically, the BSA
      module in the ViSION system did not contain information regarding whether a BSA
      examination had been conducted or whether BSA violations had been identified for that
      institution.


Safety and Soundness ROEs

      DSC Regional Director Memorandum 03-023, Integrity of Data Stored in the Interagency
      Examination Repository, dated July 1, 2003, emphasizes the importance of maintaining
      reliable ROEs in the IER to facilitate the off-site analysis of financial institutions. (As
      previously discussed, users of the ViSION system can access ROEs stored in the IER
      through a link in the system called the ROE module.) ROEs were not accessible through
      the ViSION system for 19 (25 percent) of the 75 financial institutions that we sampled.
      In addition, 14 (25 percent) of the 56 ROEs that were accessible through the ViSION
      system were draft versions of the final ROEs that did not reflect changes made during the
      supervisory review process. 7 DSC officials informed us that they had identified data
      reliability concerns with ROEs stored in the IER prior to our audit and attributed these
      concerns to two principal factors:

          •   Electronic ROEs Not Submitted by State Regulatory Agencies. Although
              information on all state regulatory agencies was not available at the time of our
              audit, a DSC official provided information indicating that 10 state regulatory
              agencies do not upload electronic ROEs to the IER for the examinations they
              conduct. In general, these regulators do not upload ROEs because of past
              technical problems experienced with the IER. For example, in January 2008, the
              FDIC advised state regulatory agencies to discontinue uploading ROEs to the IER
              for 6 weeks to allow for the correction of a system configuration problem.
              Thirteen of the 19 ROEs in our sample that were not accessible through the
              ViSION system had been prepared by state regulatory agencies.

          •   Controls Over the Collection, Processing, and Upload of Electronic ROEs.
              DSC officials indicated that controls for collecting, processing, and uploading
              ROEs to the IER do not ensure that final ROEs are entered into the system.
              Current practices for collecting, processing, and uploading ROEs to the IER vary
              among the FDIC’s regional and field offices, involve multiple steps requiring
              coordination among DSC and Division of Information Technology (DIT)
              personnel, and are dependent on electronic ROE files being named properly.
              DSC is currently working on a multi-year project to improve its processes and
      6
        The ROE states that the institution had not completed its Suspicious Activity Reports (SAR) correctly. A
      DSC official advised us that although the ViSION system contains a BSA violation code for failure to file a
      SAR, it does not contain a code for an incorrectly filed SAR because this type of violation is infrequently
      cited by examiners.
      7
        Such changes included, for example, modifications of component ratings and financial ratios and the
      addition of report sections or narrative describing examination results.


                                                          6
               technology for collecting, processing, and uploading ROEs to the IER. DSC
               officials informed us that, when fully implemented, these control improvements
               will significantly increase the reliability of ROE information in the IER.


ROE Processing Dates

      The DSC Risk Management Manual of Examination Policies states that the examination
      start date and examination completion date are used to monitor compliance with
      regulatory requirements concerning the length of time between examinations. Circular
      4700.1 states that it is “extremely important” for the examination mail date in the
      ViSION system to be accurate and complete because the Risk Related Premium System
      (RRPS) 8 uses this date to determine when deposit insurance assessment pricing changes
      become effective for financial institutions. The ViSION system contained unreliable
      ROE processing dates for 10 of the 75 financial institutions that we sampled.
      Specifically, the system contained inaccurate examination start dates for two institutions,
      an inaccurate examination completion date for one institution, and inaccurate or
      incomplete mail dates for eight institutions.9 Generally, these dates were off by a range
      of a few days to approximately 1 month. Unreliable ROE processing dates were
      principally caused by erroneous data entry.

      Unreliable examination start and completion dates did not negatively impact DSC’s
      examination schedules for the institutions we reviewed. However, unreliable
      examination mail dates affected the accuracy of deposit insurance assessments for three
      FDIC-insured financial institutions. One of the institutions was undercharged $3,050
      (about 10 percent of the institution’s fourth quarter 2007 deposit insurance assessment).
      The monetary errors for the other two institutions were immaterial. Unreliable
      examination mail dates had no effect on the deposit insurance assessments of the
      remaining five institutions for two principal reasons: (1) the manner in which the FDIC
      calculated insurance assessments prior to the implementation of deposit insurance reform
      legislation differs from current practices and (2) examination ratings, which are a key
      factor in determining assessments, were substantially the same between the prior and
      current examinations for some of the institutions. See Appendix 2 for more detailed
      information regarding how examination mail dates can affect deposit insurance
      assessments for FDIC-insured financial institutions.




      8
        RRPS is the FDIC’s system of record for assigning risk categories and deposit insurance assessment rates
      to FDIC-insured financial institutions. RRPS is a module of the ViSION system.
      9
        One institution had both an inaccurate examination start and mail date. The examination start date for one
      institution was inaccurate by 7 days and by 30 days for the remaining institution. The inaccurate
      examination completion date was inaccurate by 3 days. The ViSION system did not contain an
      examination mail date for three institutions, and the remaining five institutions had examination mail dates
      that were inaccurate by 3 to 32 days.


                                                           7
Strengthening the Reliability of Key Supervisory Information

      GAO’s November 1999 publication entitled, Standards for Internal Control in the
      Federal Government, identifies a number of internal control activities that organizations
      can consider implementing to promote accurate and complete computer-processed data.
      Such internal control activities include, for example, data edit checks, verifications, and
      reconciliations. According to the publication, organizations should design and implement
      internal control activities based on related costs and benefits. In this context,
      organizations may, based on an assessment of risk, determine that data are reliable even
      though they are not error free. Within the FDIC, the Division of Resolutions and
      Receiverships (DRR) took such an approach when it established a formal Data Quality
      Program in September 2005 to ensure “highly reliable and accurate data” within its
      priority IT systems. 10 Under the program, critical data elements within DRR’s priority IT
      systems are considered reliable if they demonstrate an accuracy rate of 90 percent or
      better based on data quality testing.

      DSC has taken steps to promote the reliability of information accessed through the
      ViSION system. Such steps include designating SMEs for the ViSION system and
      periodically assessing the reliability of information accessed through the ViSION system
      during the division’s internal reviews. However, DSC can improve the reliability of
      supervisory information accessed through the ViSION system by conducting an
      assessment of such information to determine an acceptable data accuracy rate.
      Establishing a data accuracy rate based on an assessment of relevant risks, costs, and
      benefits can provide DSC a basis for designing and implementing controls over the
      reliability of information accessed through the ViSION system that are efficient and
      effective.


Recommendation Related to ViSION System Information Reliability
      We recommend that the Director, DSC, conduct an assessment of supervisory
      information accessed through the ViSION system in order to define an acceptable
      accuracy rate and define controls and responsibilities over the reliability of supervisory
      information consistent with the results of the assessment.


CORPORATION COMMENTS AND OIG EVALUATION

      On September 16, 2008, the Director, DSC, provided a written response to the draft of this
      report. Management’s response is presented in its entirety in Appendix 3 of this report. In
      its response, DSC concurred with the recommendation and outlined its planned corrective
      actions.


      10
        DRR Circular 4360.14, Data Quality Program, dated October 30, 2005. The circular defines priority IT
      systems as any manual or automated system maintained by DRR for the storage and retrieval of
      information that is designated as such by the Deputy Director, DRR .


                                                         8
To address the recommendation, DSC will conduct a risk-based assessment of
supervisory information accessed in ViSION to formalize acceptable data accuracy rates
and to refine and clarify controls and responsibilities for monitoring data accuracy.
These actions will be completed by June 30, 2009.

A summary of management’s response to the recommendation is in Appendix 4 of this
report. DSC’s planned actions are responsive to our recommendation. The
recommendation is resolved but will remain open until we determine that the agreed-to
corrective actions have been completed and are responsive.




                                           9
                                                                                  APPENDIX 1
                           OBJECTIVE, SCOPE, AND METHODOLOGY


Objective

      The objective of the audit was to assess the reliability of key supervisory information
      accessed through the ViSION system. We performed the work because supervisory
      information accessible through the ViSION system is important to the success of the
      FDIC’s insurance and supervision programs. We conducted this performance audit from
      March through August 2008 in accordance with generally accepted government auditing
      standards. Those standards require that we plan and perform the audit to obtain
      sufficient, appropriate evidence to provide a reasonable basis for our findings and
      conclusions based on our audit objectives. We believe that the evidence obtained
      provides a reasonable basis for our findings and conclusions based on our audit
      objectives.


Scope and Methodology

      We limited the scope of the audit to assessing the reliability of supervisory information
      accessed through the ViSION system pertaining to examination ratings, BSA
      examinations, safety and soundness ROEs, and ROE processing dates. We based our
      assessment on a random sample of 75 (or 1.5 percent) of 5,075 financial institutions for
      which the FDIC was the primary federal regulator on April 3, 2008. Examinations for 37
      of the 75 financial institutions were conducted by state regulatory agencies, and
      examinations for the remaining 38 institutions were conducted by the FDIC. The
      examinations we reviewed were conducted during the period July 2006 through April
      2008. We considered the information we assessed to be reliable if it was accurate and
      complete as described in GAO’s publication entitled, Assessing the Reliability of
      Computer Processed Data.

      To accomplish our objective, we:

            •   Interviewed DSC and DIT officials in the FDIC’s Washington, D.C., area offices
                and selected regional and field offices to identify key supervisory information
                accessed through the ViSION system and to obtain an understanding of how this
                information is used to support the FDIC’s supervision and insurance programs.

            •   Assessed the reliability of key supervisory information accessible through the
                ViSION system as of May 28, 2008. For each institution, we compared key
                supervisory information to source documentation, such as hard copy ROEs, report
                transmittal memorandums, and BSA data entry forms, for the institution’s most
                recently completed safety and soundness and BSA examinations. Additionally,
                we considered relevant information obtained during interviews with DSC and DIT




                                                   10
                                                                                 APPENDIX 1


              personnel, particularly when discrepancies were identified through our
              comparisons.

          •   Reviewed the results of relevant data quality assurance work conducted by DSC’s
              Internal Control and Review Section as part of its field territory and regional
              office reviews.

          •   Worked with a DIR representative to assess the effect that unreliable examination
              ratings and ROE processing dates had on the deposit insurance assessments of the
              financial institutions we sampled.

          •   Reviewed relevant provisions of FDIC policies, procedures, and guidelines
              including:

                   o The DSC Risk Management Manual of Examination Policies, dated
                     December 2004
                   o The Case Manager Procedures Manual, dated April 2004
                   o Circular 4700.1, Risk Related Premium System, dated June 6, 2007
                   o Circular 1301.3, Data Stewardship Program, dated September 4, 2001
                   o DSC Regional Director Memorandum 03-023, Integrity of Data in the
                     Interagency Examination Repository, dated July 1, 2003
                   o DSC Regional Director Memorandum 03-048, Bank Secrecy Act
                     Examination Violation Codes, dated October 20, 2005
                   o DSC Regional Director Memorandum 05-039, Relationship Manager
                     Program Implementation, dated September 30, 2005
                   o FDIC Financial Institution Letter (FIL) 90-2003, Deposit Insurance
                     Assessments, dated November 28, 2003
                   o FIL 90-2007, Examination Cycle, dated October 24, 2007
                   o DRR Circular 4360.14, Data Quality Program, dated September 30, 2005


Internal Control

      We assessed the FDIC’s internal controls designed to ensure the reliability of key
      supervisory information accessed through the ViSION system. Such controls included
      relevant FDIC policies, procedures, and guidelines; the role of SMEs in maintaining
      reliable information in the ViSION system and IER; and DSC’s practices for entering and
      maintaining key supervisory information into the ViSION system and IER. Also, we
      considered relevant data quality assurance work conducted by DSC’s Internal Control
      and Review Section as part of their field territory and regional office reviews.




                                                  11
                                                                                  APPENDIX 1


Reliance on Computer-processed Information

      We relied on information in the ViSION system to identify the total number of examined
      financial institutions for which the FDIC was the primary federal regulator as of April 3,
      2008. We used this information as our universe in selecting a random sample of
      75 financial institutions for detailed analysis. To assure ourselves that the total number
      of FDIC-supervised institutions in the ViSION system was sufficiently reliable, we
      compared this information to a listing of FDIC-supervised financial institutions in the
      FDIC’s Institution Directory system as of April 3, 2008 and to information included in
      the FDIC’s 2007 annual report to the Congress. Further, we spoke with DSC officials to
      obtain their views on the integrity of the information and to discuss the manner in which
      we were planning to use it. We performed tests of the reliability of ViSION data in order
      to accomplish our audit objective.


Performance Measurement

      We reviewed the FDIC’s 2005-2010 Strategic Plan, 2008 Annual Performance Plan,
      2008 Corporate Performance Objectives, and 2007 Annual Report and found that they
      did not contain goals, objectives, or performance measures that were specifically relevant
      to our audit.


Compliance With Laws and Regulations

      We considered the following laws and regulations in determining the supervisory
      information to be assessed during the audit. Evaluation of compliance with these laws
      and regulations was not significant to the audit objective.

         •   Section 10(d) of the Federal Deposit Insurance Act (the FDI Act) – DSC uses
             the examination start and complete dates recorded in the ViSION system to
             schedule examinations in order to meet the examination frequency requirements
             of this section.

         •   31 Code of Federal Regulations (C.F.R.) Part 103, Section 103.56 – Section 31
             C.F.R. 103.56(e) requires the FDIC to periodically provide specific violations of
             31 C.F.R. 103 (BSA) as well as apparent violations of FDIC Rules and
             Regulations Part 326, Subpart B, to the Assistant Secretary of the Treasury. DSC
             relies on ViSION data to compile its report to the Treasury.

         •   12 C.F.R. Part 327 – The FDIC relies on examination ratings and examination
             mail dates in the ViSION system when computing deposit insurance assessments
             to be charged to insured financial institutions.




                                                  12
                                                                                   APPENDIX 1


      Additionally, we assessed the risk of fraud and abuse related to the audit objective in the
      course of evaluating audit evidence.


Prior Coverage

      We considered the following reports previously issued by the FDIC OIG in planning and
      conducting our work:

         •   Audit Report No. 04-017, Supervisory Actions Taken for Bank Secrecy Act
             Violations, dated March 2004. The objective of the audit was to determine
             whether the FDIC adequately follows up on BSA violations identified during
             examinations of FDIC-supervised financial institutions and ensures appropriate
             corrective actions are taken. The audit report stated that the FDIC had not
             ensured that all identified BSA violations were included and tracked in the
             ViSION system. Accordingly, the FDIC had not ensured complete reporting to
             the Treasury. The report recommended that the Director, DSC, re-evaluate and
             update examination guidance to strengthen the monitoring and follow-up
             processes for BSA violations, including consistent citation and recordation of all
             apparent violations in safety and soundness ROEs and the ViSION system.

         •   Audit Report No. 04-027, FDIC’s Virtual Supervisory Information on the Net
             Application, dated July 2004. The objective of the audit was to determine
             whether controls over the ViSION system’s operational components, including
             modules implemented through Phase III, were adequate. The audit identified
             some discrepancies between certain data in the ViSION system and hard copy
             ROEs. The audit report recommended that the Director, DSC, establish a data
             quality review process to periodically check for discrepancies between the
             ViSION system and the ROE. DSC agreed to incorporate such data quality
             reviews into its field territory reviews.




                                                   13
                                                     APPENDIX 2
          ROLE OF EXAMINATION MAIL DATES IN CALCULATING
                  DEPOSIT INSURANCE ASSESSMENTS


On November 2, 2006, the FDIC’s Board of Directors adopted a final rule on deposit
insurance assessments as part of the implementation of the Federal Deposit Insurance
Reform Act of 2005. Under the rule, the FDIC charges insured financial institutions
quarterly insurance assessments based on the risk that the institutions pose to the Deposit
Insurance Fund. In general, the FDIC calculates an institution’s quarterly insurance
assessment by multiplying the institution’s assessable base amount by its risk-based
assessment rate. The assessable base amount is the sum of the institution’s deposit
liabilities (less permissible exclusions) derived from information contained in the
institution’s Report of Condition and Income (Call Report) or Thrift Financial Report
(TFR). The risk-based assessment rate is a number expressed in basis points that is
derived from the institution’s risk assignment provided by the FDIC. An institution's risk
assignment consists of four categories and is determined using various information, such
as examination ratings, financial ratios from Call Reports and TFRs, and long-term debt
issuer ratings for institutions that have them.

According to FDIC Rules and Regulations Part 327, Assessments:

       Changes to an institution’s risk assignment resulting from a supervisory ratings
       change become effective as of the date of written notification to the institution
       [i.e., the examination mail date] by its primary federal regulator or state authority
       of its supervisory rating (even when the CAMELS component ratings have not
       been disclosed to the institution), if the FDIC, after taking into account other
       information that could affect the rating, agrees with the rating. If the FDIC does
       not agree, changes to an institution’s risk assignment become effective as of the
       date that the FDIC determines that a change in the supervisory rating is warranted.

FDIC Circular 4700.1, Risk Related Premium System, dated June 6, 2007, states, “It
continues to be extremely important to maintain accurate and complete FDIC database
records relating to the assignment of CAMELS ratings and the date those ratings were
transmitted to the institution. These records are used by RRPS to calculate the
assessment rate.” The circular also states, “case managers must now enter the date of the
transmittal letters completed by state authorities for State-only examinations in ViSION,
as the transmittal date is the date pricing changes become effective.”


OIG Analysis of Examination Mail Dates in the ViSION System

The ViSION system contained inaccurate or incomplete examination mail dates for 8 of
the 75 financial institutions we sampled. Table 2 on the following page provides a
summary of the unreliable examination mail dates we identified in the ViSION system.




                                            14
                                                                                             APPENDIX 2


Table 2: Unreliable Examination Mail Dates in the ViSION System
                 Agency         Examination       Examination Mail
  Financial Performing the Mail Date in the        Date on the ROE
 Institution  Examination      ViSION System Transmittal Memo                                    Variance
      A            State            Blank             8/25/2006                                    N/A
      B            State            Blank             9/20/2006                                    N/A
      C            State            Blank             11/3/2006                                    N/A
      D            State          7/5/2007            6/19/2007                                   16 days
      E            State          8/17/2007           7/16/2007                                   32 days
      F           FDIC            9/21/2007           9/24/2007                                   3 days
      G            State          12/6/2007           11/6/2007                                   30 days
      H            State         12/18/2007           11/26/2007                                  22 days
Source: OIG analysis of information in the ViSION system and hard copy transmittal memorandums.

We requested that a DIR analyst review the examination mail dates contained in Table 2
to determine whether the unreliable data had an effect on deposit insurance premiums
charged by the Corporation. The analyst concluded that the three blank examination mail
dates had no effect on deposit insurance premiums due to the manner in which the
Corporation calculated assessments prior to the implementation of deposit insurance
reform legislation. The analyst also concluded that inaccurate examination mail dates
had no effect on the deposit insurance premiums charged to institutions F and G because
the current examination ratings for these institutions were substantially the same as in the
prior examinations. Further, the analyst concluded that inaccurate examination mail
dates had at least some effect on the deposit insurance premiums for institutions D, E,
and H because the current examination ratings for these institutions changed from the
prior examinations. Based on information provided by the DIR analyst, we calculated the
effect that inaccurate examination mail dates had on the premiums charged to institutions
D, E, and H. Table 3 summarizes the results of our calculations.

Table 3: Effects of Unreliable Examination Mail Dates on Insurance Assessments
                            Percentage of Quarterly     Dollar Amount of
  Financial Institution      Assessment that Was      Quarterly Assessment
                                 Not Correct          That Was Not Correct
            D                       0.06 %                     $6.00
            E                       0.40 %                   ($94.00)*
                H                              9.60 %                           ($3,050.00)
             Total                              N/A                             ($3,138.00)
Source: OIG analysis of information provided by DIR.
*Parenthetical figures represent undercharges to financial institutions on their quarterly assessments.




                                                     15
                       APPENDIX 3

CORPORATION COMMENTS
                                                                                                       APPENDIX 4

                    MANAGEMENT RESPONSE TO THE RECOMMENDATION


This table presents the management response on the recommendation in our report and the status of
the recommendation as of the date of report issuance.
          Corrective Action Taken           Expected       Monetary      Resolved: a        Open or
             or Planned for the            Completion      Benefits      Yes or No          Closed b
              Recommendation                   Date
     DSC will conduct a risk-based          6/30/2009           N/A          Yes             Open
     assessment of the supervisory
     information accessed in ViSION to
     formalize acceptable data accuracy
     rates and to refine and clarify
     controls and responsibilities for
     monitoring data accuracy.


a
    Resolved – (1) Management concurs with the recommendation, and the planned, ongoing, and completed
                    corrective action is consistent with the recommendation.
              (2) Management does not concur with the recommendation, but alternative action meets the intent
                   of the recommendation.
              (3) Management agrees to the OIG monetary benefits, or a different amount, or no ($0) amount. Monetary
                   benefits are considered resolved as long as management provides an amount.
b
  Once the OIG determines that the agreed-upon corrective actions have been completed and are responsive to the
recommendations, the recommendations can be closed.




                                                           17
                                                                    APPENDIX 5

           ACRONYMS USED IN THE REPORT


BSA      Bank Secrecy Act
CAMELS   Capital Adequacy, Asset Quality, Management, Earnings, Liquidity,
         Sensitivity to Market Risk
C.F.R.   Code of Federal Regulations
DIR      Division of Insurance and Research
DIT      Division of Information Technology
DRR      Division of Resolutions and Receiverships
DSC      Division of Supervision and Consumer Protection
FBA      Federal Banking Agency
FDI      Federal Deposit Insurance
FIL      Financial Institution Letter
FinCEN   Financial Crimes Enforcement Network
GAO      Government Accountability Office
IER      Interagency Examination Repository
IT       Information Technology
OIG      Office of Inspector General
OMB      Office of Management and Budget
ROE      Report of Examination
RRPS     Risk Related Premium System
SAR      Suspicious Activity Report
SME      Subject Matter Expert
TFR      Thrift Financial Report
ViSION   Virtual Supervisory Information on the Net




                                18
